                                                       U.S. Department of the Interior
                                                       Office of Inspector General

             How to Report
         Fraud, Waste, and Abuse                            MANAGEMENT CHALLENGES
                                                          FOR INSULAR AREA GOVERNMENTS
Fraud, waste, and abuse in Government are the                AN OPPORTUNITY FOR IMPROVEMENT
concern of everyone – Office of Inspector General
staff, Departmental employees, and the general
public. We actively solicit allegations of any
inefficient and wasteful practices, fraud, and abuse
                                                                      Guam, U.S. Virgin Islands, American Samoa,
related to Departmental or insular area programs                  Commonwealth of the Northern Mariana Islands, and
and operations. You can report allegations to us by:                Compact States [Republic of the Marshall Islands,
                                                                  Federated States of Micronesia, and Republic of Palau]
Mail:     U.S. Department of the Interior
          Office of Inspector General
          Mail Stop 5341-MIB
          1849 C Street, NW
          Washington, DC 20240

Phone:    24-Hour Toll Free           800-424-5081

          Washington Metro Area       202-208-5300
          Hearing Impaired            202-208-2420
          Fax                         202-208-6023

          Caribbean Region            703-487-8058
          Northern Pacific Region     671-647-6060

Internet: www.oig.doi.gov/hotline_form.html




                                                       No. 2002-I-0017                                 MARCH 2002
M
              ission: The mission of the Office
               of Inspector General (OIG) is to
               promote excellence in the programs,
               operations, and management of the
Department of the Interior (DOI). We accomplish
our mission in part by objectively and
independently assessing major issues and risks
that directly impact, or could impact, the DOI’s
ability to carry out its programs and operations
and by timely advising the Secretary, bureau
officials, and the Congress of actions that should
be taken to correct any problems or deficiencies.
In that respect, the value of our services is linked
to identifying and focusing on the most important
issues facing DOI.
                United States Department of the Interior
                        Office of Inspector General
                         Washington, D.C. 20240

                                                      March 1, 2002

     Memorandum

     To:      Secretary

     From:    Earl E. Devaney
              Inspector General

     Subject: Management Challenges for Insular Area
              Governments, An Opportunity for Improvements
              (No. 2002-I-0017)

         This report identifies what the Office of Inspector General
     (OIG) believes to be the major management challenges for the
     insular area governments. The report includes an assessment
     for each insular area government of its:

             h Overall Financial Management
             h Internal Audit Capabilities
             h Audit Resolution Issues
             h Areas for Improvement
         Based on the results of audits performed by the OIG
     during the past 19 years (1983 to 2001), we believe that there
     exists unrealized opportunities for improvement in financial
     management, revenue enhancement, expenditure control, and
     program operations. However, some of these opportunities
     may require financial resources and/or technical expertise that
     may be beyond the current capacities of some of the insular
     area governments. In those cases the Office of Insular Affairs
     and other Federal grantor agencies should consider providing
     appropriate financial and/or technical assistance.

         If you have any questions about this report, please do not
     hesitate to call me at (202) 208-5745.
48
    - Review and, where appropriate, revise economic
development laws and procedures to ensure that Federally-
financed economic development loans are granted only to
businesses that will enhance economic growth and have a
reasonable financial ability to repay the loans.

    Expenditure Control. To control expenditures, each of
the Compact states should:

   - Enforce the competitive procurement requirements
contained in applicable Federal grant management regulations.

   Program Operations. To improve general operations of
Federally-funded programs, each of the Compact states
should:

    - Establish a comprehensive building maintenance
program that has the staff and resources necessary to provide
ongoing repair and maintenance to all Federally-financed
facilities.

    - Establish an effective governmentwide system to account
for all Federally-financed property, including real property
and equipment.

   - Ensure that the Office of Public Auditor has the staff,
other resources, and organizational independence necessary to
function effectively in assessing government operations and
developing recommendations for improvement.

   - Establish a comprehensive audit followup system that
can (1) track the level of resolution and implementation of
audit recommendations made by local, Federal, and
independent auditors and (2) enforce implementation by
operating agencies of recommendations with which the
Compact state’s chief executive concurs.

                              47
principles, the Compacts of Free Association, the Single Audit
Act of 1984 as amended, and Federal grant management
requirements, each of the Compact states should:
                                                                                             CONTENTS
    - Evaluate the capabilities of its existing financial
management systems and the long-term financial management
needs of policy-makers and program personnel, and
implement appropriate upgrades of the financial management
systems to provide the ability to (1) effectively handle the
volume of users and financial transactions projected to exist                   Management Challenges for
over the next 10 years and (2) provide user agencies with                       Insular Area Governments
timely and accurate information on the status of their
accounts.

    - Implement procedural changes necessary to allow the
Compact state’s independent auditors to perform and publish                                                                                  Page
single audits on the state’s financial statements and Federal
financial assistance within 9 months of the end of each fiscal    Guam       ....................................                             1
year, as required by the Single Audit Act of 1984 as amended.
                                                                  U.S. Virgin Islands . . . . . . . . . . . . . . . . . . . . . . . . . .    11
    - Establish a governmentwide clearinghouse for
information on Federal grants, including single audit and         American Samoa             ...........................                     23
indirect cost rate information.
                                                                  Commonwealth of the Northern Mariana Islands                         ..    30
    - Ensure that grant managers in all Compact state agencies
receive ongoing training on the requirements for                  Compact States . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   36
administration of Federal grants, with special emphasis on
(1) the cost principles and the type and level of documentation           Republic of the Marshall Islands . . . . . . . . . .               36
necessary to show that grant expenditures are in compliance               Federated States of Micronesia . . . . . . . . . . .               38
with applicable requirements and (2) the common rules for                 Republic of Palau . . . . . . . . . . . . . . . . . . . . . .      40
grant administration especially as related to financial                   Crosscutting Issues for Compact States . . . . .                   42
management and reporting, procurement, and property
management requirements.

   Revenue Enhancement. To improve its ability to collect
revenues, each of the Compact states should:

                              46
education opportunities and as dependents of employed
migrants. The data show that Compact migrants surveyed
were working in jobs that required few skills and paid low
wages, and most (over 50 percent) were living in poverty in all
three U.S. island areas. According to GAO, the governments
of Guam, Hawaii, and the Commonwealth of the Northern
Mariana Islands identified significant Compact migration
impact. The three U.S. areas have collectively reported at least
$371 million in costs to local governments for 1986 through
2000 that are associated with migrants from the Federated
States of Micronesia, the Republic of the Marshall Islands,
and the Republic of Palau, with Guam’s estimate accounting
for close to half of the total amount. All three U.S. island areas
have shown that costs have been concentrated in the areas of
health and education.

Areas for Improvement

Based on the results of audits performed by OIG during the
past 19 years (fiscal years 1983 to 2001), we believe that the
governments of Compact states should take the following
actions in order to achieve greater levels of economy,
efficiency, and effectiveness in the management of Federal
source funds. These general recommendations distill the
essence of hundreds of specific recommendations made in
about 40 audit reports issued since October 1982. Some of
these recommendations will require financial resources and
technical expertise that may be beyond the current capacities
of the Compact states. In those cases, the Office of Insular
Affairs and other Federal grantor agencies should be
approached about the possibility of providing appropriate
financial and/or technical assistance.

   Financial Management. To meet the financial
management requirements of generally accepted accounting


                               45
Marshall Islands. This is evidenced by the fact that (1) per
capita incomes have stagnated in the Federated States and
                                                                                               Guam
fallen in the Marshall Islands; (2) Compact funds spent to
support general government operations have maintained high          Overall Financial Management
government wages and a large level of public sector
employment that has discouraged private sector growth;              The Government of Guam has been experiencing financial
(3) Compact spending to create and improve infrastructure has       difficulties because of the downturn in the economies of most
not contributed to significant economic growth; (4) Compact-        Asian countries during the late 1990s, which resulted in a
funded business ventures have generally failed. GAO further         reduction in tourist visitors and tourist-related income to the
concluded that (1) while the Compact set out specific               Government’s General Fund. Hotel occupancy rates declined
obligations for reporting and consulting regarding the use of       from an average of 85 percent in 1996 to only 61 percent in
Compact funds, the governments of the Federated States, the         1999. Although Guam’s tourist arrivals had shown a slight
Marshall Islands, and the United States provided limited            increase during the first few months of 2001, the number of
accountability over Compact expenditures and have not               visitors were still not back to the peak levels of the mid-1990s.
ensured that funds were spent effectively or efficiently; (2) the   After the September 11th terrorist attacks, tourist arrivals
United States did not meet the Compact requirement to               declined significantly, with arrivals in October 2001 being
consult annually with both countries during the first 7 years of    reported at only 50 percent of October 2000 levels.
Compact assistance; (3) the Department of the Interior had
devoted few resources to monitoring Compact assistance; and         Operationally, the Government has had significant problems
(4) disagreements between the Departments of State and the          in several areas of interest to OIG. Perhaps most significantly,
Interior limited monitoring, as did a Compact provision that        a new Oracle-based financial management system that was
guarantees funding to the two nations.                              supposed to have brought the Government of Guam into the
                                                                    "new millennium" has not operated properly and the
    - The October 2001 report "Migration From Micronesian           Government has had to commit several million dollars in
Nations Has Had Significant Impact on Guam, Hawaii, and             funds to have further work done on the system, although
the Commonwealth of the Northern Mariana Islands"                   millions of dollars had already been spent on initial
(No. GAO-02-40) found that thousands of citizens from the           development of the system. As a result, the Government has
Federated States of Micronesia, the Republic of the Marshall        not been able to produce a comprehensive operating budget
Islands, and the Republic of Palau have availed themselves of       for the current fiscal year and has had to fall back on its old
the migration rights provided under the Compacts. Almost            accounting system in order to provide even a modicum of
14,000 migrants were living in Guam and Hawaii in 1997 and          accountability over revenues and expenditures. Further, the
the Commonwealth of the Northern Mariana Islands in 1998,           semi-autonomous Guam Power Authority and Guam
according to Department of the Interior surveys. Guam had the       Waterworks Authority both disclosed, during legislative
most Compact migrants at 6,550, followed by Hawaii with             hearings in late February 2001, that they had delinquent
5,500 and the Commonwealth with 1,755. Compact migrants             accounts receivable accounts valued at several million dollars,
moved to U.S. island areas primarily for employment and             including thousands of dollars owed by prominent

                               44                                                                  1
Government of Guam officials and employees. Additionally,        health care and monitoring of islanders exposed to radioactive
in early March 2001, the failure of a sewage pumping station     fallout. GAO also reported that, in gathering and verifying
resulted in the discharge of raw sewage into the bay where the   data on the cost of U.S. assistance provided to the Compact
majority of Guam’s luxury hotels and resorts are located,        states, it found inaccuracies and inconsistencies with the data
resulting in the beaches being closed because of the presence    being used by Interior to supervise and monitor federal
of harmful bacteria.                                             assistance programs. For example, Interior had a number of
                                                                 errors in the budget data it reported annually to Congress on
Recent Audit Findings                                            direct payments to the Islands; there were significant
                                                                 inconsistencies in Interior's data on the assistance provided by
OIG audits of Government of Guam operations during fiscal        other agencies to the Islands and the data the agencies reported
years 1999, 2000, and 2001 disclosed evidence of continued       to GAO; Interior had not used the annual single audit
inadequate accounting for Federal funds, noncompliance with      information available from the Compact states to corroborate
competitive procurement laws, and ineffective operations at      its figures; and Interior's ability to accurately report on
Guam’s main economic development agency.                         assistance provided was called into question.

A multi-segment audit of the Guam Department of Education            - The September 2000 report "U.S. Funds to Two
disclosed that the Department (1) paid substitute teachers at    Micronesian Nations Had Little Impact on Economic
least $21,000 for hours not worked, hours worked on              Development" (No. NSIAD-00-216) concluded that (1)
nonschool days, and hours that were not adequately supported     Compact funds were used for general government operations,
by required documents (No. 99-I-13); (2) did not ensure that     capital projects such as building roads or investing in
Federally funded travel costs totaling at least $47,000 were     businesses, making debt payments, and improving targeted
adequately supported (No. 99-I-255); (3) did not adequately      sectors such as energy and communications; (2) while the
control program income of about $32,000 or adequately            Federated States concentrated much of its spending on
account for and support expenditures totaling about $2 million   supporting government activities, the Marshall Islands
for a Federally funded after-school program (No. 99-I-455);      emphasized capital spending; (3) although the two countries
and (4) did not use about $5.4 million received under a          have made some progress in achieving economic self-
contract with the U.S. Department of Defense for educational     sufficiency, as measured by their governments' lower reliance
purposes as was required by the contract (No. 00-I-172).         on U.S. funding, both countries remain highly dependent on
                                                                 U.S. assistance, which still provides more than half of total
A multi-segment audit of the Guam Economic Development           government revenues in each country; (4) although the amount
Authority found that (1) the Authority issued economic           of Compact funding has decreased since 1987 as required by
development loans totaling almost $7 million without ensuring    the terms of the Compact, both countries have received other
that the proposed projects would enhance Guam’s economy or       U.S. funding through their use of U.S. federal services and
that the borrowers had the ability to repay the loans and did    programs. The report also concluded that Compact
not take effective collection action on delinquent loans         expenditures to date have led to little improvement in
totaling almost $4 million (No. 01-I-417); (2) the Authority     economic development in the Federated States and the

                              2                                                                43
              ** Crosscutting Issues **                             issued tax exemptions to tourist-oriented businesses without
                                                                    ensuring that the resulting benefits to the Guam economy
                                                                    would be commensurate with the more than $61 million in
GAO Audits on Compact States
                                                                    potential tax revenues foregone over the life of the exemption
                                                                    certificates (No. 01-I-419); and (3) Government of Guam
Because the Compacts of Free Association between the United
                                                                    agencies lost or will lose as much as $65 million as a result of
States and both the Republic of the Marshall Islands and the
                                                                    not requesting and/or following the financial advice available
Federated States of Micronesia are currently under
                                                                    from the Authority (No. 2002-I-016).
renegotiation, the U.S. Congress requested that GAO perform
a series of audits on the Compact states. As of October 2001,
                                                                    Audits are currently underway on the management of Federal
GAO had issued three reports on the Compact states, as
                                                                    grants by the Department of Mental Health and Substance
follows:
                                                                    Abuse (Assignment No. N-IN-GUA-002-00-M) and the
                                                                    management of water operations by the Guam Waterworks
    - The May 2000 report "Better Accountability Needed
                                                                    Authority (Assignment No. N-IN-GUA-001-01-R).
Over U.S. Assistance to Micronesia and the Marshall Islands"
(No. RCED-00-67) concluded that (1) during fiscal years 1986
                                                                    The most recently published single audit report is for fiscal
to 1999, the United States had provided more than $2.6 billion
                                                                    year 1999, and it has a qualified opinion because
in financial and other assistance, of which more than
                                                                    (1) tax-related records and data could not be accessed to verify
$1.5 billion was provided to the Federated States and over
                                                                    revenues and outstanding receivables, (2) information on the
$1.1 billion was provided to Marshall Islands; (2) the
                                                                    general fixed assets account group was incomplete, (3) fixed
Department of the Interior had provided the majority of the
                                                                    assets of the Guam Community College were not included,
assistance, about $2 billion, through quarterly payments to be
                                                                    (4) information on the general long-term debt account group
used for such purposes as capital construction projects, energy
                                                                    was incomplete, (5) financial information on the Pension Trust
production, communication capabilities, and current account
                                                                    Fund, the Guam Housing and Urban Renewal Authority, the
costs, such as those for payroll, maintenance, and other
                                                                    Guam Council on the Art and Humanities, the Guam Port
governmental activities; (3) the remaining half billion dollars
                                                                    Authority, the Guam Department of Education, the Supreme
was provided by 19 federal agencies in the form of grants,
                                                                    Court of Guam, the Guam Legislature, and the Guam Visitor’s
loans, equipment, and technical assistance, such as weather
                                                                    Bureau were not included, and (6) audited financial statements
forecasting support and airport training activities; (4) prior to
                                                                    of the Guam Memorial Hospital Authority and the Guam
the Compact, the United States provided about $250 million in
                                                                    Preservation Trust Fund were not included. The single audit
funding and assistance to what is now the Marshall Islands for
                                                                    also reported Federal financial assistance of $169.6 million
the effects of the U.S. nuclear weapons testing program that
                                                                    (Interior - $9 million) with questioned costs of $15.7 million
took place in the Marshall Islands during the 1940s and 1950s;
                                                                    (Interior - $3.1 million). The financial statements indicated
(5) the Departments of Defense, Energy, and Interior provided
                                                                    that the General Fund had an accumulated deficit of
direct payments to the Marshall Islands' governments and
                                                                    $108.9 million as of September 30, 1999. The Government of
individuals, rehabilitation and resettlement services, and
                                                                    Guam had to request a 6-month extension of the deadline for

                               42                                                                  3
completion of the fiscal year 1999 single audit because it was      Senate and the House. The term of office is 6 years and the
unable to prepare financial statements as a result of the failure   individual may be reappointed to a second 6-year term. The
of its new Oracle-based financial management system.                office is funded by annual General Fund appropriations and
                                                                    unused funds may be carried over to the next year. As of
Internal Audit Capabilities                                         March 2001, the office had a staff of 9 (the Public Auditor,
                                                                    5 auditors, 1 investigator, and 2 support staff), or a decrease of
The Office of Public Auditor was established by Guam public         2 employee since 1998.
law. Until 1999, the position was filled by having a special
commission submit possible candidates (either an attorney or a
Certified Public Accountant) to the Governor. The Governor
appointed an individual from this list with confirmation by the
Legislature. The term of office was 6 years and, if the
individual wished to remain in office beyond the initial term,
he had to be popularly elected for another 6-year term.
However, in 1999, the Guam Legislature amended the Public
Auditor law to make the Public Auditor position an elected
office and to reduce the qualification requirements by
allowing an individual with 5 or more years of experience in
budget formulation and/or execution to hold office. The
current Public Auditor was elected to office in November
2000 and took office in January 2001. Based on the revised
law, the office is now funded at a specified percentage of
General Fund appropriations. As of February 2002, the office
had a staff of 9 (the Public Auditor, 7 audit staff, 1 support
staff), or an increase of 4 employees since 1999.

Audit Resolution Issues
The lack of adequate audit resolution and implementation of
recommendations by the Government of Guam contributed to
the existence of long-standing financial management
deficiencies. OIG’s experience has been that, although the
Government may implement recommendations that address
the specific deficiencies and transactions noted in audit
reports, it often does not implement recommendations that call
for substantive, systemic changes in operating policies and

                                4                                                                  41
               ** Republic of Palau **                             procedures to ensure that similar problems do not occur in the
                                                                   future. As a result, our audit reports often disclose problems
                                                                   that are identical or at least similar to ones that had been
Overall Financial Management                                       disclosed by prior audit reports. For example:
The Republic of Palau did not have adequate control over               - Reports issued in 1990 (No. 90-78), 1993 (No. 93-I-706),
Federal funds provided for capital improvement projects. An        1994 (No. 94-I-980), 1995 (No. 95-I-1202), and 2000
OIG audit in fiscal year 2000 concluded that Palau did not         (No. 00-I-172) disclosed internal control and compliance
effectively manage construction projects funded by the Trust       deficiencies that resulted in Federal funds awarded to the
Territory of the Pacific Islands and the Compact of Free           Government of Guam not being properly accounted for or
Association and, as a result, (1) Compact funds totaling almost    used in accordance with grant or contract requirements.
$6.5 million were not effectively used for badly-needed
capital improvement projects and (2) Trust Territory-funded            - Reports issued in 1984 (No. N-TG-GUA-16-84B), 1989
projects valued at more than $48 million remained                  (No. 89-70), and 1998 (No. 98-I-570) presented information
uncompleted for periods ranging from 5 to 25 years                 on ineffective administrative and collection enforcement
(No. 00-I-537).                                                    practices by the Guam Department of Revenue and Taxation
                                                                   that resulted in lost gross receipts tax revenues that totaled as
The most recent published single audit report is for fiscal year   much as $2 million in 1998.
1999, and it included a qualified opinion because (1) the
general fixed assets account group was not updated and                 - Reports issued in 1991 (Nos. 91-I-372 and 91-I-563) and
(2) financial statements of the Palau District Housing             1997 (No. 97-I-1051) concluded that Government of Guam
Authority and the Palau National Communications                    agencies did not have adequate personnel management
Corporation were not included. The single audit also reported      practices, which resulted in excessive personnel service costs
Federal financial assistance of $31.5 million                      that ranged from $1.9 million in 1991 to $3.6 million in 1997.
(Interior - $25.2 million) with questioned costs of about
$30,000 (Interior - $30,000). The financial statements                - Reports issued in 1993 (No. 94-I-37), 1997
indicated that the General Fund had an accumulated deficit of      (No 97-I-241), and 1998 (No. 98-I-14) concluded that
$18.7 million as of September 30, 1999.                            Government of Guam agencies did not comply with
                                                                   competitive procurement requirements for purchases and
Internal Audit Capabilities                                        contracts totaling as much as $24 million.

The position of Public Auditor was created by Palau’s              Areas for Improvement
Constitution, and the Office of Public Auditor was established
by the Public Auditing Act of 1985. The position is filled by      Based on the results of audits performed by OIG during the
appointment (the candidate must be a Certified Public              past 19 years (fiscal years 1983 to 2001), we believe that the
Accountant) by the President with confirmation by both the         Government of Guam should take the following actions in

                               40                                                                  5
order to achieve greater levels of economy, efficiency, and       requirements) by the President with confirmation by the
effectiveness in its financial management and program             Congress. The nominal term of office is 6 years, but the
operations. These general recommendations distill the essence     individual continues in office until replaced by another
of hundreds of specific recommendations made in about             Presidential appointee. The office is funded by annual
115 audit reports issued since October 1982. Some of these        General Fund appropriations and, as of March 2001, had a
recommendations will require financial resources and              staff of 9 (the Acting Public Auditor, 6 auditors,
technical expertise that may be beyond the current capacities     1 investigator, and 1 support staff), or a decrease of 8
of the Government of Guam. In those cases, the Office of          employees since 1998. The position of Public Auditor has
Insular Affairs and other Federal grantor agencies should be      been vacant since early 1999. As of March 2001, each of the
approached about the possibility of providing appropriate         four states of the Federated States had small audit offices with
financial and/or technical assistance.                            staffs of 7 (the State Auditor, 5 auditors, and 1 support staff)
                                                                  in Pohnpei, 2 (the State Auditor and 1 support staff) in Kosrae,
    Financial Management. To meet the financial                   2 (the State Auditor and 1 support staff) in Yap, and 1 (support
management requirements of generally accepted accounting          staff only) in Chuuk.
principles, the Insular Areas Act of 1982, the Single Audit Act
of 1984 as amended, Federal grant management requirements,
and appropriate local laws and regulations, the Governments
of Guam should:

    - Evaluate the capabilities of its existing financial
management systems and the long-term financial management
needs of policy-makers and program personnel, and
implement appropriate upgrades of its financial management
systems to provide the ability to (1) effectively handle the
volume of users and financial transactions projected to exist
over the next 10 years and (2) provide user agencies with
timely and accurate information on the status of their
accounts.

    - Ensure that users of the financial management systems in
all operating agencies receive ongoing training on the
capabilities and use of the systems.

   - Implement procedural changes necessary to allow (1) the
central accounting department to produce comprehensive
annual financial reports within 120 days of the end of each

                               6                                                                39
      ** Federated States of Micronesia **                         fiscal year, as required by the Insular Areas Act of 1982, and
                                                                   (2) the Government’s independent auditors to perform and
                                                                   publish single audits on the Government’s financial statements
Overall Financial Management                                       and Federal financial assistance within 9 months of the end of
                                                                   each fiscal year, as required by the Single Audit Act of 1984
The Federated States of Micronesia also did not have effective     as amended.
controls over Federally-funded loan programs. An OIG audit
in fiscal year 1999 concluded that the Pohnpei Local Office of        - Ensure that annual executive budgets are prepared and
the Rural Development Loan Program, which was funded by            submitted for legislative consideration and approval within the
the U.S. Department of Agriculture and jointly operated by         deadlines specified in local laws.
Agriculture and the Federated States, did not ensure that
recipients of home loans totaling more than $700,000 used the          - Enforce existing prohibitions against making or
loans for houses that met program requirements and/or would        authorizing expenditures or obligations in excess of the
be used for noncommercial, personal residency purposes             amount of any appropriation or allotment.
(No. 99-I-953).
                                                                       - Establish a governmentwide clearinghouse for
The most recent published single audit report is for fiscal year   information on Federal grants, including single audit and
1999, and it included a qualified opinion because (1) fixed        indirect cost rate information.
assets, receivables, amounts due to and from other
governments, and revenues of the governmental fund types               - Ensure that grant managers in all Government agencies
could not be verified; (2) there were questions about the          receive ongoing training on the requirements for
propriety and disclosure of accounts payable for the Health        administration of Federal grants, with special emphasis on
Insurance Fund; and (3) financial statements of the National       (1) the cost principles and the type and level of documentation
Fisheries Corporations were not included. The single audit         necessary to show that grant expenditures are in compliance
also reported Federal financial assistance of $99.3 million        with applicable requirements and (2) the common rules for
(Interior - $90 million) with questioned costs of $68,000          grant administration especially as related to financial
(Interior - $58,000). The financial statements indicated that      management and reporting, procurement, and property
the General Fund did not have an accumulated deficit as of         management requirements.
September 30, 1999.
                                                                      Revenue Enhancement. To improve its ability to
Internal Audit Capabilities                                        generate and collect revenues, the Government of Guam
                                                                   should:
The position of Public Auditor was created by the Federated
States’ Constitution, and the Office of Public Auditor was             - Computerize the tax administration functions and
established by the National Public Auditor Act. The position       vigorously enforce the laws and regulations related to income
is filled by appointment (no specific qualification                taxes and existing local taxes to ensure that (1) potential

                               38                                                                 7
taxpayers are identified and assessed taxes on a fair and          of the government were not included. The single audit also
equitable basis and (2) all taxes owed to the Government are       reported Federal financial assistance of $106.5 million
properly accounted for and collected.                              (Interior - $70.5millon) with questioned costs of $2.8 million
                                                                   (Interior - $2.3 million). The financial statements indicated
    - Ensure that all agencies that generate accounts receivable   that the General Fund did not have an accumulated deficit as
have procedures to (1) maintain accurate and up-to-date            of September 30, 1999.
records on the amounts owed to the Government and
(2) aggressively enforce collection of such amounts.               Internal Audit Capabilities
   - Implement and enforce internal controls, including the        The position of Auditor General was created by the Marshall
providing of an adequate level of supervisory oversight,           Islands’ Constitution, and the Auditor General’s duties and
within all agencies that make collections on behalf of the         responsibilities are defined by the Auditor General Act of
Government.                                                        1986. The position is filled by appointment (no specific
                                                                   qualification requirements) by the President with confirmation
    - Review and, where appropriate, revise economic               by the Legislature. The term of office is permanent until the
development laws to ensure that (1) tax exemptions and/or          individual reaches the age of 72, resigns, or is removed for
rebates are provided only to industries and firms that would       cause. The office is funded by annual General Fund
not otherwise establish in Guam without such incentives,           appropriations, usually at a level of 0.5 percent of total
(2) cost-benefit analyses are performed on a periodic basis to     appropriations, and, as of March 2001, had a staff of 5 (the
ensure that the benefits of economic development programs          Auditor General, 4 auditors, and no support staff), or a
are commensurate with the tax revenues foregone,                   decrease of 2 employee since 1998.
(3) economic development beneficiaries comply with
employment and other requirements intended to provide
economic benefits to the Guam economy, and (4) economic
development loans are granted only to businesses that will
enhance economic growth and have a reasonable financial
ability to repay the loans.

    - Ensure that all agencies that rent Government-owned
property to private entities charge rental rates that are
commensurate with market conditions and enforce collection
of lease rental receivables.

   Expenditure Control. To control expenditures and
provide operating agencies with the resources necessary to


                               8                                                                 37
                                                                   carry out their operational responsibilities, the Government of
                  Compact States                                   Guam should:

    ** Republic of the Marshall Islands **                            - Enforce the competitive procurement requirements
                                                                   contained in local laws and regulations and, where
Overall Financial Management                                       appropriate, in Federal grant management regulations.

The Republic of the Marshall Islands did not have effective            - Ensure that the central procurement department and other
controls over Compact funds, including a Compact-funded            authorized purchasing agencies fully document competitive
loan program. An OIG audit in fiscal year 1999 concluded           procurement actions taken or provide justification as to why
that the Marshall Islands Development Bank (1) had used            competitive procurement procedures were not used.
Compact funds totaling about $13.7 million to issue
commercial loans without adequate assurance that the loans            - Review and, where appropriate, revise existing
were for purposes that conformed to approved economic              procurement and vendor payment policies and procedures to
development plans and that the borrowers had the capability to     ensure that agencies receive required goods and services and
repay the loans, (2) did not enforce collection on additional      vendors are paid for such goods and services in a timely
Compact-funded loans totaling about $4.1 million that were         manner.
delinquent, and (3) did not adequately account for outstanding
Trust Territory loans totaling about $380,000 (No. 99-I-952).          - Review and, where appropriate, revise space leasing
Additionally, an October 2000 news article reported that a         policies and procedures to ensure that commercial space is not
former President of the Marshall Islands had allowed the Bank      leased unless suitable Government-owned property is not
of New York (the Marshall Islands’ custodian for Compact           available and, in such cases, that rental rates paid are
funds) to use Compact funds to pay $270,000 against a              commensurate with existing market conditions.
$400,000 personal loan that the former President had with the
Bank of Guam. This matter was referred to the OIG                     - Require that operating agencies control travel costs in
investigators on Guam.                                             accordance with existing travel regulations.

The most recent published single audit report is for fiscal year      Program Operations. To improve general program
1999, and it included a qualified opinion because (1) minutes      operations, the Government of Guam should:
of board of directors’ meetings of the government-owned
Majuro Resort, Inc. and Air Marshall Islands, Inc. were not            - Provide operating agencies with qualified staff, adequate
available for review, (2) the general fixed assets account group   training, and other resources necessary for them to carry out
was not updated, (3) there were inadequacies in the accounting     their legally mandated responsibilities efficiently and
records and internal controls over financial reporting for all     effectively.
governmental fund types and a component unit of the
government, and (4) financial statements of a component unit

                              36                                                                  9
    - Review and, where appropriate, revise existing personnel       Program Operations. To improve general program
policies and procedures to (1) consolidate multiple pay          operations, the Commonwealth of the Northern Mariana
schedules, (2) streamline the personnel recruitment process,     Islands should:
and (3) ensure that career service positions are not filled by
political appointments that destroy the credibility of the           - Establish a comprehensive building maintenance
personnel merit system.                                          program that has the staff and resources necessary to provide
                                                                 ongoing repair and maintenance to all Commonwealth-owned
    - Establish a comprehensive building maintenance             facilities.
program that has the staff and resources necessary to provide
ongoing repair and maintenance to all Government-owned               - Establish an effective governmentwide system to account
facilities.                                                      for all Commonwealth-owned property, including real
                                                                 property and equipment.
    - Establish an effective governmentwide system to account
for all Government-owned property, including real property          - Ensure that the Office of Public Auditor continues to
and equipment.                                                   have the staff, other resources, and organizational
                                                                 independence necessary to function effectively in assessing
   - Ensure that the Office of Public Auditor has the staff,     government operations and developing recommendations for
other resources, and organizational independence necessary to    improvement.
function effectively in assessing government operations and
developing recommendations for improvement.                         - Establish a comprehensive audit followup system that
                                                                 can (1) track the level of resolution and implementation of
   - Establish a comprehensive audit followup system that        audit recommendations made by local, Federal, and
can (1) track the level of resolution and implementation of      independent auditors and (2) enforce implementation by
audit recommendations made by local, Federal, and                operating agencies of recommendations with which the
independent auditors and (2) enforce implementation by           Government’s chief executive concurs.
operating agencies of recommendations with which the
Government’s chief executive concurs.




                              10                                                               35
    - Computerize the tax administration functions and
vigorously enforce the laws and regulations related to income
                                                                                  U.S. Virgin Islands
taxes and existing local taxes to ensure that (1) potential
taxpayers are identified and assessed taxes on a fair and          Overall Financial Management
equitable basis and (2) all taxes owed to the Commonwealth
are properly accounted for and collected.                          The Government of the U.S. Virgin Islands continues to face
                                                                   severe financial difficulties. A September 1998 audit report
    - Ensure that all agencies that generate accounts receivable   (No. 98-I-670) disclosed that the Government had about
have procedures to (1) maintain accurate and up-to-date            $588 million in outstanding operating-related debt and made
records on the amounts owed to the Commonwealth and (2)            unauthorized loans of about $120 million from its Special and
aggressively enforce collection of such amounts.                   Other Funds bank account, which includes Federal grant
                                                                   funds, to cover General Fund payroll expenses. Since the
   - Implement and enforce internal controls, including the        issuance of that report, the Government continued to suffer
providing of an adequate level of supervisory oversight,           severe cash flow problems, which resulted in the accumulation
within all agencies that make collections on behalf of the         of debt totaling close to $1 billion, including amounts owed
Commonwealth.                                                      for income tax refunds, payments to vendors, negotiated salary
                                                                   increases to employees, FEMA disaster assistance loans,
    Expenditure Control. To control expenditures and               accumulated operating deficits, and ever-increasing
provide operating agencies with the resources necessary to         outstanding bonds. In November 1999, the Government
carry out their operational responsibilities, the Commonwealth     issued over $300 million in bonds, which was used to pay
of the Northern Mariana Islands should:                            long-outstanding operating-related expenses, including the
                                                                   overdue income tax refunds, payments to vendors, and
   - Enforce the competitive procurement requirements              negotiated employee raises. However, the Government
contained in local laws and regulations and, where                 pledged a portion of future gross receipts tax revenues to pay
appropriate, in Federal grant management regulations.              the bonds, meaning that this important source of revenue is no
                                                                   longer available to pay future operating expenses. The U.S.
    - Ensure that the central procurement department and other     Virgin Islands suffered a significant drop in tourist arrivals in
authorized purchasing agencies fully document competitive          the months immediately following the September 11, 2001
procurement actions taken or provide justification as to why       terrorist attacks, and the ultimate financial impact of that
competitive procurement procedures were not used.                  tourist decline on Government revenues is still unknown.

   - Require that operating agencies control travel costs in       In October 1999, the Governor of the U.S. Virgin Islands and
accordance with existing travel regulations.                       the Secretary of the Interior entered into a Memorandum of
                                                                   Understanding (MOU) intended to provide the U.S. Virgin
                                                                   Islands with some financial relief in return for pledges of
                                                                   improved financial accountability on the part of the

                              34                                                                  11
Government of the U.S. Virgin islands. The MOU contains 13        over the next 10 years and (2) provide user agencies with
fiscal accountability and financial performance standards that    timely and accurate information on the status of their
require the Government to establish a 5-year financial            accounts.
recovery plan; reduce expenditures, including regular
personnel costs and overtime; achieve a balanced budget by            - Ensure that users of the financial management systems in
fiscal year 2003; prepare and issue comprehensive annual          all operating agencies receive ongoing training on the
financial reports and single audit reports within                 capabilities and use of the systems.
legally-mandated timeframes; develop and implement a staff
training program; and exert "all efforts" to reduce the               - Implement procedural changes necessary to allow (1) the
Government’s outstanding debt. The MOU also required the          central accounting department to produce comprehensive
Government to provide the Department of the Interior with         annual financial reports within 120 days of the end of each
monthly (later changed to quarterly) progress reports.            fiscal year, as required by the Insular Areas Act of 1982, and
Progress reports submitted by the Government stated that the      (2) the Commonwealth’s independent auditors to perform and
Government had met required expenditure reduction goals           publish single audits on the Commonwealth’s financial
related to fiscal year 2000. However, pressure for salary         statements and Federal financial assistance within 9 months of
increases from government employee unions and the lack of         the end of each fiscal year, as required by the Single Audit Act
support from the Legislature to some of the Executive             of 1984 as amended.
Branch’s cost-cutting initiatives has resulted in subsequent
increases in Government expenditures in fiscal years 2001 and         - Approve, on an annual basis, governmentwide budgets
2002. A limited review by OIG of the Government’s                 that limit expenditures and transfer authorizations to the most
compliance with the MOU disclosed that 8 of 13 the fiscal         current and realistic revenue projections available.
accountability and financial performance standards contained
in the MOU had not been "substantially achieved" as of                - Ensure that grant managers in all Commonwealth
October 2001 (Draft No. V-IN-VIS-0045-2001).                      agencies receive ongoing training on the requirements for
                                                                  administration of Federal grants, with special emphasis on
In December 2001, a joint Federal/Virgin Islands conference       (1) the cost principles and the type and level of documentation
was held on St. Thomas, during which Federal and Virgin           necessary to show that grant expenditures are in compliance
Islands government representatives developed an outline for a     with applicable requirements and (2) the common rules for
plan of action to achieve significant improvements in three       grant administration especially as related to financial
key areas: financial management, procurement and property         management and reporting, procurement, and property
management, and human resources management. This                  management requirements.
conference was spearheaded by the U.S. Department of
Education as part of a formal process to put the Virgin Islands      Revenue Enhancement. To improve its ability to
Department of Education under a compliance agreement to           generate and collect revenues, the Commonwealth of the
meet Federal grant management requirements. However, the          Northern Mariana Islands should:
plan of action developed during the conference involves

                              12                                                                33
improvement appropriations. As of March 2001, the office            crosscutting systems and procedures that will have beneficial
had a staff of 35 (the Public Auditor, 24 auditors,                 effects on governmentwide operations.
5 investigators, 2 attorneys, and 3 support staff), or a decrease
of 5 employees since 1998.                                          Recent Audit Findings
Areas for Improvement                                               OIG audits of Government of the U.S. Virgin Islands
                                                                    operations during fiscal years 1999 through 2001 disclosed
Based on the results of audits performed by OIG during the          that the Government (1) did not effectively collect
past 19 years (fiscal years 1983 to 2001), we believe that the      unemployment insurance taxes totaling more than $18.5
Commonwealth Government should take the following                   million (No. 99-I-148), delinquent loans to members of the
actions in order to achieve greater levels of economy,              Government Employees Retirement System totaling about
efficiency, and effectiveness in their financial management         $5.3 million (No. 99-I-261), real property taxes totaling at
and program operations. These general recommendations               least $15.4 million (No. 99-I-379), and excise taxes totaling
distill the essence of hundreds of specific recommendations         more than $1 million (No. 01-I-291); (2) did not implement
made in more than 40 audit reports issued since October 1982.       policies and procedures to restrict the hiring of political
Some of these recommendations will require financial                appointees to positions that, by law, should be part of the
resources and technical expertise that may be beyond the            personnel merit system and did not ensure that the number of
current capacities of some of the insular area governments. In      Government employees was reduced to the levels required by
those cases, the Office of Insular Affairs and other Federal        an early retirement law (No. 99-I-365); (3) did not effectively
grantor agencies should consider providing appropriate              manage, account for, and use Federal grants totaling about
financial and/or technical assistance.                              $25 million from the Federal Transit Administration
                                                                    (No. 99-I-701), the Department of Justice Child Support
    Financial Management. To meet the financial                     Program, (No. 99-I-921), the Department of Education
management requirements of generally accepted accounting            (No. 99-I-956), the Department of Health and Human Services
principles, the Insular Areas Act of 1982, the Single Audit Act     (No. 99-I-957), the Department of the Interior (No. 00-I-216),
of 1984 as amended, Federal grant management requirements,          the Department of Housing and Urban Development (No. 00-
and appropriate local laws and regulations, the                     I-625), and the Environmental Protection Agency
Commonwealth of the Northern Mariana Islands should:                (No. 00-I-696); (4) did not ensure that the Virgin Islands
                                                                    Lottery properly accounted for and expended funds totaling
    - Evaluate the capabilities of its existing financial           more than $1.3 million (No. 01-I-290); (5) did not ensure that
management systems and the long-term financial management           the Virgin Islands Port Authority properly accounted for and
needs of policy-makers and program personnel, and                   collected lease rental and parking lot fees totaling about
implement appropriate upgrades of its financial management          $1.2 million (No. 01-I-303); and (6) did not ensure that the
systems to provide the ability to (1) effectively handle the        Virgin Islands Department of Education paid payroll charges
volume of users and financial transactions projected to exist       of $120,000 from the correct accounts (No. 01-I-330). Audit
                                                                    reports issued since September 30, 2001, also disclosed

                               32                                                                 13
weaknesses in the financial and operational activities of the       the Department of the Interior) concluded that the Ports
Virgin Islands Fire Service (No. 2002-I-001), the Joint             Authority (1) did not adequately analyze or justify contract
Partnership Training Act program of the Virgin Islands              change orders, (2) entered into an unauthorized,
Department of Labor (No. 2002-I-002), the Virgin Islands            noncompetitive contract for construction management
Housing Finance Authority (No. 2002-I-009), and the Virgin          services, and (3) improperly used Saipan harbor project funds
Islands Police Department (No. 2002-I-010).                         for a project on the nearby island of Rota (Draft No.
                                                                    N-IN-NMI-003-00-R). These deficiencies led to a delay of
The Government has made significant progress to achieve             more than 6 years in the completion of the project, which
compliance with the requirements of the Single Audit Act of         contributed to questioned costs totaling $11.9 million.
1984, as amended in 1996. The most recent published single
audit report is for fiscal year 1999, the fiscal year 2000 report   The most recent published single audit report is for fiscal year
is due in January 2002, and the Government is on a                  1999, and it included a qualified opinion because (1) the
Federally-mandated timetable to produce future single audit         general fixed assets account group was not updated, (2) there
reports in a timely manner. Additionally, the Government has        were inadequacies in the accounting records and internal
agreed to Federal grantor agency demands that agreed-upon           controls for all governmental fund types and a component unit
procedures reviews be performed for fiscal years 1996 and           of the government, and (3) financial statements of other
1997. However, the single audits show that financial                component units of the government were not included. The
management deficiencies continue to exist. Specifically, the        single audit also reported Federal financial assistance of
fiscal year 1999 single audit report included a qualified           $45.9 million (Interior - $19.1 million) with questioned costs
opinion because (1) the general fixed assets account group was      of about $146,000 (Interior - $146,000). The financial
omitted, (2) current financial information on the Housing           statements indicated that the General Fund had an
Finance Authority and Housing Authority was not included,           accumulated deficit of $39.9 million as of September 30,
(3) the Government Employee Retirement System auditors              1999.
issued a qualified opinion due to their inability to verify cash
and outstanding loan balances, (4) financial records were not       Internal Audit Capabilities
maintained to verify accounts receivables, inventories, and
fixed assets of Government-owned hospitals, and (5) landfill        The position of Public Auditor was created by the
closure and postclosure costs were not included in the general      Commonwealth’s Constitution, and the Office of Public
long-term debt account group. The single audit also reported        Auditor was established by the Commonwealth Auditing Act.
Federal financial assistance of $163.3 million                      The position is filled by appointment by the Governor with
(Interior - $3.3 million) with questioned costs of $17.8 million    confirmation by the Legislature. The term of office is 6 years
(Interior - $0). The financial statements indicated that the        and the individual may be reappointed for a second 6-year
General Fund had an accumulated deficit of $345.2 million as        term. The Office is guaranteed a minimum $500,000 annual
of September 30, 1999.                                              budget but, in accordance with the Commonwealth Auditing
                                                                    Act, generally receives a budget of 1 percent of the total
                                                                    amount of annual Commonwealth operating and capital

                               14                                                                  31
          Commonwealth of the                                      Internal Audit Capabilities

         Northern Mariana Islands                                  The position of Inspector General and the Bureau of Audit and
                                                                   Control were created by Virgin Islands public law. The
Overall Financial Management                                       position is filled by appointment (no specific qualification
                                                                   requirements other than training, character, and experience) by
Like Guam, the Commonwealth of the Northern Mariana                the Governor with confirmation by the Legislature. The term
Islands has had severe financial difficulties because of a         of office is 6 years and the individual may be reappointed for
downturn in its tourism-based economy. The Commonwealth            additional 6-year terms. Legislation passed by the Virgin
suffered a more drastic drop in visitor arrivals than did Guam     Islands Legislature in December 1999 revised the law
as a result of the Asian economic recession, with hotel            establishing the Bureau to create the Virgin Islands Office of
occupancy rates declining from almost 86 percent in 1996 to        Inspector General as an independent agency under the
only 58 percent in 1999. Additionally, a recent resurgence in      Executive Branch for administrative purposes. The amended
visitors had not been to the same extent as experienced in         legislation also gave the new organization investigative
Guam and the decline in tourist arrivals was exacerbated by        authority. The office is funded by annual General Fund
the September 11th terrorist attacks. However, based on press      appropriations and, as of February 2002, had a staff of 11 (the
reports, it appears that the Commonwealth Government has           Inspector General and acting Deputy Inspector General,
tried to take the steps necessary to cut operating expenditures.   1 legal counsel, 3 auditors, 2 investigators, 1 prosecutor1, and
This is most critical for the Commonwealth because the             2 support staff), or a decrease of 4 employees since 1995.
Northern Mariana Islands do not receive the same level of          The office’s budget also includes positions (currently vacant)
Federal financial assistance as do either Guam or American         for 2 audit managers, 4 auditors, 1 investigator, and 1 support
Samoa. OIG audits on the Commonwealth Government’s                 staff. The Inspector General is in the process of trying to fill
operations during fiscal year 1999 disclosed that (1) the Public   these vacant positions. The Virgin Islands Inspector General
School System did not use competitive procurement                  and the Virgin Islands Attorney General have formed a
requirements to make purchases totaling more than $500,000         Government Fraud and Corruption Task Force to identify,
that were funded by Federal grants and could not locate            investigate, and prosecute individuals involved in public
equipment valued at almost $200,000 that was purchased with        corruption. The Task Force has identified and filed charges
Federal grant funds (No. 99-I-147) and (2) the Office of the       against several Government officials (including a former
Governor made expenditures from the Governor’s                     Governor, an acting Commissioner of Health, the director of
discretionary fund that exceeded legislative appropriations by     an off-shore tourism office, and other Government employees)
almost $6.5 million and improperly reprogrammed                    on various cases of fraudulent activities. Most of these
appropriated funds totaling more than $400,000                     individuals were required to make restitution as part of
(No. 99-I-356). A more recent audit of the Commonwealth
Ports Authority’s $50 million project to upgrade the Saipan
                                                                   1
harbor facilities (which included $23.5 million provided by        The prosecutor is funded by and supports the Government Fraud and
                                                                   Corruption Task Force.

                              30                                                                     15
plea-bargain agreements with the Virgin Islands Attorney                      Program Operations. To improve general program
General and therefore were not formally prosecuted.                        operations, the American Samoa Government should:

Audit Resolution Issues                                                        - Provide operating agencies with qualified staff, adequate
                                                                           training, and other resources necessary for them to carry out
The lack of adequate audit resolution and implementation of                their legally mandated responsibilities efficiently and
recommendations by the Government of the U.S. Virgin                       effectively.
Islands contributed to the existence of long-standing financial
management deficiencies. OIG’s experience has been that,                       - Establish a comprehensive building maintenance
although the Government may implement recommendations                      program that has the staff and resources necessary to provide
that address the specific deficiencies and transactions noted in           ongoing repair and maintenance to all Government-owned
audit reports, it often does not implement recommendations                 facilities.
that call for substantive, systemic changes in operating
policies and procedures to ensure that similar problems do not                 - Establish an effective governmentwide system to account
occur in the future. As a result, our audit reports often                  for all Government-owned property, including real property
disclose problems that are identical or at least similar to ones           and equipment.
that had been disclosed by prior audit reports. For example:
                                                                              - Ensure that the Office of Territorial Auditor has the staff,
    - Reports issued in 1987 (No. V-TG-VIS-10-86), 1988                    other resources, and organizational independence necessary to
(No. 88-102), 1993 (No. 93-I-1382), and 1998 (No. 98-I-670)                function effectively in assessing government operations and
presented information regarding problems with the financial                developing recommendations for improvement.
management system of the Government of the U.S. Virgin
Islands that prevented the system from providing user                         - Establish a comprehensive audit followup system that
agencies with accurate, current, complete, and reliable                    can (1) track the level of resolution and implementation of
information on the status of their Federal grant and local                 audit recommendations made by local, Federal, and
appropriation accounts.                                                    independent auditors and (2) enforce implementation by
                                                                           operating agencies of recommendations with which the
     - Reports issued in 1985 (No. V-TG-VIS-11-84), 1990                   Government’s chief executive concurs.
(Nos. 90-80 and 90-103), 1997 (No. AC-03-36-97),2 and 1998
(No. AC-01-36-98) presented information on ineffective
billing and collection procedures at hospitals owned by the
Government of the U.S. Virgin Islands that allowed hospital


2
 Audit reports with numbers that begin with the letters "AC" were issued
by the Virgin Islands Bureau of Audit and Control.

                                   16                                                                     29
the loans are repaid and the proceeds are used as provided in    service charge receivables to increase from $63.7 million in
the loan applications.                                           1984 to $174 million in 1997.

   - Implement and enforce internal controls, including the          - Reports issued in 1984 (No. V-TG-VIS-08-84), 1990
providing of an adequate level of supervisory oversight,         (No. 90-67), 1994 (No. AC-02-30-94), and 1999
within all agencies that make collections on behalf of the       (No. 93-I-379) commented on ineffective collection
Government.                                                      procedures at the Virgin Islands Department of Finance that
                                                                 allowed real property tax receivables to increase from
    Expenditure Control. To control expenditures and             $1.7 million in 1984 to $15.4 million in 1998.
provide operating agencies with the resources necessary to
carry out their operational responsibilities, the American       It is expected by Federal grantor agencies that the plan of
Samoa Government should:                                         action developed during the December 2001 conference (see
                                                                 the third paragraph under "Overall Financial Management")
   - Enforce the competitive procurement requirements            will correct some of the long-standing financial management,
contained in local laws and regulations and, where               procurement and property management, and human resources
appropriate, in Federal grant management regulations.            management deficiencies which have plagued the
                                                                 Government.
    - Ensure that the central procurement department and other
authorized purchasing agencies fully document competitive        Areas for Improvement
procurement actions taken or provide justification as to why
competitive procurement procedures were not used.                Based on the results of audits performed by OIG during the
                                                                 past 19 years (fiscal year 1983 to 2001), we believe that the
   - Review and, where appropriate, revise existing              Government of U.S. Virgin Islands should take the following
procurement and vendor payment policies and procedures to        actions in order to achieve greater levels of economy,
ensure that agencies receive required goods and services and     efficiency, and effectiveness in its financial management and
vendors are paid for such goods and services in a timely         program operations. These general recommendations distill
manner.                                                          the essence of hundreds of specific recommendations made in
                                                                 almost 200 audit reports issued since October 1982. Some of
    - Review and, where appropriate, revise space leasing        these recommendations will require financial resources and
policies and procedures to ensure that commercial space is not   technical expertise that may be beyond the current capacities
leased unless suitable Government-owned property is not          of the Government of the U.S. Virgin Islands. In those cases,
available and, in such cases, that rental rates paid are         the Office of Insular Affairs and other Federal grantor
commensurate with existing market conditions.                    agencies should be approached about the possibility of
                                                                 providing appropriate financial and/or technical assistance.
   - Require that operating agencies control travel costs in
accordance with existing travel regulations.

                              28                                                               17
    Financial Management. To meet the financial                       - Enforce existing prohibitions against making or
management requirements of generally accepted accounting          authorizing expenditures or obligations in excess of the
principles, the Insular Areas Act of 1982, the Single Audit Act   amount of any appropriation or allotment.
of 1984 as amended, Federal grant management requirements,
and appropriate local laws and regulations, the Governments           - Establish a governmentwide clearinghouse for
of the U.S. Virgin Islands should:                                information on Federal grants, including single audit and
                                                                  indirect cost rate information.
    - Evaluate the capabilities of its existing financial
management systems and the long-term financial management             - Ensure that grant managers in all Government agencies
needs of policy-makers and program personnel, and                 receive ongoing training on the requirements for
implement appropriate upgrades of its financial management        administration of Federal grants, with special emphasis on
systems to provide the ability to (1) effectively handle the      (1) the cost principles and the type and level of documentation
volume of users and financial transactions projected to exist     necessary to show that grant expenditures are in compliance
over the next 10 years and (2) provide user agencies with         with applicable requirements and (2) the common rules for
timely and accurate information on the status of their            grant administration especially as related to financial
accounts.                                                         management and reporting, procurement, and property
                                                                  management requirements.
    - Ensure that users of the financial management systems in
all operating agencies receive ongoing training on the               Revenue Enhancement. To improve its ability to
capabilities and use of the systems.                              generate and collect revenues, the American Samoa
                                                                  Government should:
    - Implement procedural changes necessary to allow (1) the
central accounting department to produce comprehensive                - Computerize the tax administration functions and
annual financial reports within 120 days of the end of each       vigorously enforce the laws and regulations related to income
fiscal year, as required by the Insular Areas Act of 1982, and    taxes and existing local taxes to ensure that (1) potential
(2) the Government’s independent auditors to perform and          taxpayers are identified and assessed taxes on a fair and
publish single audits on the Government’s financial statements    equitable basis and (2) all taxes owed to the Government are
and Federal financial assistance within 9 months of the end of    properly accounted for and collected.
each fiscal year, as required by the Single Audit Act of 1984
as amended.                                                           - Ensure that all agencies that generate accounts receivable
                                                                  have procedures to (1) maintain accurate and up-to-date
   - Ensure that annual executive budgets are prepared and        records on the amounts owed to the Government and
submitted for legislative consideration and approval within the   (2) aggressively enforce collection of such amounts.
deadlines specified in local laws.
                                                                     - Ensure that the American Samoa Development Bank
                                                                  provides adequate analysis and control in issuing loans so that

                              18                                                                27
    Financial Management. To meet the financial                       - Enforce existing prohibitions against making or
management requirements of generally accepted accounting          authorizing expenditures or obligations in excess of the
principles, the Insular Areas Act of 1982, the Single Audit Act   amount of any appropriation or allotment.
of 1984 as amended, Federal grant management requirements,
and appropriate local laws and regulations, the American              - Establish a governmentwide clearinghouse for
Samoa Governments should:                                         information on Federal grants, including single audit and
                                                                  indirect cost rate information.
    - Evaluate the capabilities of its existing financial
management systems and the long-term financial management             - Ensure that grant managers in all Government agencies
needs of policy-makers and program personnel, and                 receive ongoing training on the requirements for
implement appropriate upgrades of its financial management        administration of Federal grants, with special emphasis on
systems to provide the ability to (1) effectively handle the      (1) the cost principles and the type and level of documentation
volume of users and financial transactions projected to exist     necessary to show that grant expenditures are in compliance
over the next 10 years and (2) provide user agencies with         with applicable requirements and (2) the common rules for
timely and accurate information on the status of their            grant administration especially as related to financial
accounts.                                                         management and reporting, procurement, and property
                                                                  management requirements.
    - Ensure that users of the financial management systems in
all operating agencies receive ongoing training on the               Revenue Enhancement. To improve its ability to
capabilities and use of the systems.                              generate and collect revenues, the Government of the U.S.
                                                                  Virgin Islands should:
    - Implement procedural changes necessary to allow (1) the
central accounting department to produce comprehensive                - Computerize the tax administration functions and
annual financial reports within 120 days of the end of each       vigorously enforce the laws and regulations related to income
fiscal year, as required by the Insular Areas Act of 1982, and    taxes and existing local taxes to ensure that (1) potential
(2) the Government’s independent auditors to perform and          taxpayers are identified and assessed taxes on a fair and
publish single audits on the Government’s financial statements    equitable basis and (2) all taxes owed to the Government are
and Federal financial assistance within 9 months of the end of    properly accounted for and collected.
each fiscal year, as required by the Single Audit Act of 1984
as amended.                                                           - Ensure that all agencies that generate accounts receivable
                                                                  have procedures to (1) maintain accurate and up-to-date
   - Ensure that annual executive budgets are prepared and        records on the amounts owed to the Government and
submitted for legislative consideration and approval within the   (2) aggressively enforce collection of such amounts.
deadlines specified in local laws.
                                                                     - Implement and enforce internal controls, including the
                                                                  providing of an adequate level of supervisory oversight,

                              26                                                                19
within all agencies that make collections on behalf of the        result, our audit reports often disclose problems that are
Government.                                                       identical or at least similar to ones that had been disclosed by
                                                                  prior audit reports. For example:
    - Review and, where appropriate, revise economic
development laws to ensure that (1) tax exemptions and/or             - Reports issued in 1987 (No. S-TG-AMS-11-86), 1989
rebates are provided only to industries and firms that would      (No. 89-92), 1990 (No. 90-16), and 1994 (No. 94-I-651)
not otherwise establish in the U.S. Virgin Islands without such   concluded that the American Samoa Government did not
incentives, (2) cost-benefit analyses are performed on a          follow established internal controls to prevent the obligation
periodic basis to ensure that the benefits of economic            of funds in excess of appropriations, with the result that the
development programs are commensurate with the tax                Government’s unreserved fund deficit increased from about
revenues foregone, (3) economic development beneficiaries         $2 million in 1988 to $54 million in 1993.
comply with employment and other requirements intended to
provide economic benefits to the U.S. Virgin Islands                  - And reports issued in 1986 (No. S-TG-AMS-16-85),
economy, and (4) economic development loans are granted           1989 (No. S-TG-AMS-11-88), 1992 (GAO report), 1994
only to businesses that will enhance economic growth and          (No. 94-I-651), and 2002 (No. 2002-I-0003) concluded that
have a reasonable financial ability to repay the loans.           the American Samoa Government was not effective in
                                                                  administering and collecting income taxes, which resulted in
    - Ensure that all agencies that rent Government-owned         up to $7 million in potential tax revenues not being collected.
property to private entities charge rental rates that are
commensurate with market conditions and enforce collection        Areas for Improvement
of lease rental receivables.
                                                                  Based on the results of audits performed by OIG during the
    Expenditure Control. To control expenditures and              past 19 years (fiscal years 1983 to 2001), we believe that the
provide operating agencies with the resources necessary to        American Samoa Government should take the following
carry out their operational responsibilities, the Government of   actions in order to achieve greater levels of economy,
the U.S. Virgin Islands should:                                   efficiency, and effectiveness in its financial management and
                                                                  program operations. These general recommendations distill
   - Enforce the competitive procurement requirements             the essence of hundreds of specific recommendations made in
contained in local laws and regulations and, where                more than 60 audit reports issued since October 1982. Some
appropriate, in Federal grant management regulations.             of these recommendations will require financial resources and
                                                                  technical expertise that may be beyond the current capacities
    - Ensure that the central procurement department and other    of some of the insular area governments. In those cases, the
authorized purchasing agencies fully document competitive         Office of Insular Affairs and other Federal grantor agencies
procurement actions taken or provide justification as to why      should consider providing appropriate financial and/or
competitive procurement procedures were not used.                 technical assistance.


                              20                                                                 25
system of financial accounting and reporting was inadequate,          - Review and, where appropriate, revise existing
(2) there were significant failures in the operation of computer   procurement and vendor payment policies and procedures to
systems, (3) there were significant weaknesses in the internal     ensure that agencies receive required goods and services and
control structure related to general accounting and grant          vendors are paid for such goods and services in a timely
administration, and (4) there was a lack of appropriate            manner.
management oversight, including a lack of review and
approval of financial transactions. The single audit also              - Review and, where appropriate, revise space leasing
reported Federal financial assistance of $88.9 million             policies and procedures to ensure that commercial space is not
(Interior - $30.6 million) with questioned costs of $4.4 million   leased unless suitable Government-owned property is not
(Interior - $500,000). The financial statements indicated that     available and, in such cases, that rental rates paid are
the General Fund had an accumulated deficit of $31.4 million       commensurate with existing market conditions.
as of September 30, 1996.
                                                                      - Require that operating agencies control travel costs in
Internal Audit Capabilities                                        accordance with existing travel regulations.

The Office of Territorial Auditor was established by American         Program Operations. To improve general program
Samoa public law. The position is filled by appointment (the       operations, the Government of the U.S. Virgin Islands should:
candidate must be either a Certified Public Accountant or a
Certified Internal Auditor) by the Governor with confirmation          - Provide operating agencies with qualified staff, adequate
by both the Senate and the House. The term of office is            training, and other resources necessary for them to carry out
4 years and may be renewed. The office is funded by annual         their legally mandated responsibilities efficiently and
General Fund appropriations and, as of March 2001, had a           effectively.
staff of 4 (the acting Territorial Auditor, 2 auditors, and
1 support staff), or a decrease of 2 employees since 1998. The         - Review and, where appropriate, revise existing personnel
position of Territorial Auditor has been vacant since late 1998.   policies and procedures to (1) consolidate multiple pay
                                                                   schedules, (2) streamline the personnel recruitment process,
Audit Resolution Issues                                            and (3) ensure that career service positions are not filled by
                                                                   political appointments that destroy the credibility of the
The lack of adequate audit resolution and implementation of        personnel merit system.
recommendations by the American Samoa Government
contributed to the existence of long-standing financial                - Establish a comprehensive building maintenance
management deficiencies. As in Guam, OIG’s experience has          program that has the staff and resources necessary to provide
been that the Government has had a very poor track record in       ongoing repair and maintenance to all Government-owned
implementing recommendations that call for substantive,            facilities.
systemic changes in operating policies and procedures. As a


                               24                                                                21
    - Establish an effective governmentwide system to account
for all Government-owned property, including real property
                                                                                 American Samoa
and equipment.
                                                                Overall Financial Management
   - Ensure that the Office of Virgin Islands Inspector
General has the staff, other resources, and organizational      The American Samoa Government continues to face financial
independence necessary to function effectively in assessing     management problems and receive operating subsidies of
government operations and developing recommendations for        about $23 million annually through Interior’s Office of Insular
improvement.                                                    Affairs. Even with these operating subsidies, the Government
                                                                has had operating deficits in recent fiscal years. Primary
   - Establish a comprehensive audit followup system that       among the causes of the recurring operating deficits is the
can (1) track the level of resolution and implementation of     inability or unwillingness of the American Samoa
audit recommendations made by local, Federal, and               Government to control expenditures and collect all tax
independent auditors and (2) enforce implementation by          revenues due. For example, OIG audit reports issued in fiscal
operating agencies of recommendations with which the            years 1998 and 2002 disclosed that (1) a legislative renovation
Government’s chief executive concurs.                           project was allowed to expand from a $78,000 roof repair
                                                                project to a comprehensive $1 million building renovation
                                                                project without proper planning, construction oversight, or use
                                                                of competitive procurement (No. 98-I-653) and (2) the
                                                                American Samoa Tax Office was not effective in the
                                                                administration and collection of income taxes
                                                                (No. 2002-I-003). With regard to tax collections, we found
                                                                that the Tax Office lost potential tax revenues of at least
                                                                $7.1 million because it did not have procedures to identify and
                                                                pursue income tax nonfilers; did not have an effective system
                                                                for selecting tax returns for audit; did not complete tax audits
                                                                before expiration of the statute of limitations; did not take
                                                                prompt action to collect identified delinquent taxes; did not
                                                                adequately justify the abatement of taxes, penalties, and
                                                                interest; and did not ensure that a new automated income tax
                                                                system functioned properly. Similar problems had been
                                                                disclosed by OIG, GAO, and the American Samoa Territorial
                                                                Auditor in at least five reports issued since 1986.

                                                                The most recent published single audit report is for fiscal year
                                                                1996, and it included a disclaimer of opinion because (1) the

                              22                                                               23
